 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL


     CONSEJO DE SALUD DE
   PUERTO RICO, INC., DID NOT
ALWAYS CLAIM RECOVERY ACT COSTS
      IN ACCORDANCE WITH
    FEDERAL REQUIREMENTS




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                      September 2012
                                                       A-02-11-02011
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under section 330 of the Public Health Service Act, codified at 42 U.S.C. §
254b. The Health Center Program provides comprehensive primary health care services to
medically underserved populations through planning and operating grants to health centers.
Within the U.S. Department of Health and Human Services (HHS), the Health Resources and
Services Administration (HRSA) administers the program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP), New
Access Points (NAP), and Increased Demand for Services (IDS) grants.

Consejo de Salud de Puerto Rico, Inc. (Consejo) is a nonprofit community health center that
provides medical, dental, mental, and ancillary health services such as diagnostic testing and
pharmacy to residents of four communities in southern Puerto Rico. Consejo is primarily funded
by Federal, State, and local grants.

Consejo received $23,839,900 in revenue from all funding sources during fiscal year 2009. Of
this amount, $2,148,540 was awarded by HRSA under a CIP grant to make improvements to
existing facilities, and a total of $2,051,212 was awarded under NAP and IDS grants to increase
access and reduce barriers to health care within Consejo’s service area.

Consejo must comply with Federal cost principles in 2 CFR pt. 230, Cost Principles for Non-
Profit Organizations, the requirements for health centers in 42 U.S.C. § 254(b), and the financial
management system requirements in 45 CFR § 74.21. Pursuant to 2 CFR part 230, Appendix A,
§ A.2.g, costs must be adequately documented to be allowable under an award. Pursuant to
2 CFR part 230, Appendix B, §§ 8.b and 8.m, for salaries and wages to be allowable for Federal
reimbursement, grantees must maintain personnel activity reports that reflect the distribution of
activity of each employee whose compensation is charged in whole or in part, directly to Federal
awards.

OBJECTIVE

Our objective was to determine whether costs claimed by Consejo were allowable under the
terms of the grant and applicable Federal requirements.




                                                i
SUMMARY OF FINDINGS

Of the $2,548,872 in costs that we reviewed, Consejo claimed $957,008 in costs that were
allowable under the terms of the grant and applicable Federal requirements. We were unable to
determine if the remaining $1,591,864 in salary and fringe benefit costs were allowable because
Consejo did not prepare personnel activity reports for employees whose time was charged to the
grant. Moreover, Consejo did not have written procedures for determining the allowability of
expenditures in accordance with applicable Federal requirements.

RECOMMENDATIONS

We recommend that HRSA:

       either require Consejo to refund $1,591,864 to the Federal Government ($878,274 related
       to the NAP grant and $713,590 related to the IDS grant) or work with Consejo to
       determine whether any of the costs that it claimed against these grants were allowable,

       educate Consejo officials on Federal requirements for supporting salaries and wages, and

       ensure that Consejo (1) develops written procedures for determining the allowability of
       expenditures and (2) maintains personnel activity reports for each employee who works
       on Federal awards.

CONSEJO DE SALUD DE PUERTO RICO, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Consejo disagreed with our first recommendation and
generally agreed with our remaining recommendations. Further, Consejo requested time to
provide additional documentation through “alternate methods” to validate that the $1,591,864 in
salary and fringe benefit costs were allowable. Consejo subsequently clarified that the additional
documentation consisted of after-the-fact personnel activity reports prepared after our fieldwork
and sworn statements from its employees. Since the additional documentation was created
subsequent to our review, we did not grant Consejo’s request for time to submit the additional
documentation. Consejo’s comments are included as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                           Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Health Center Program. ...............................................................................1
              The American Recovery and Reinvestment Act of 2009. ...........................1
              Consejo de Salud de Puerto Rico, Inc. .........................................................1
              Federal Requirements for Grantees. ............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          GRANT FUNDS NOT SUPPORTED WITH DOCUMENTATION .....................3
              Federal Requirements ..................................................................................3
              Salary and Fringe Benefit Costs ..................................................................3

          RECOMMENDATIONS .........................................................................................4

          CONSEJO DE SALUD DE PUERTO RICO, INC., COMMENTS AND
          OFFICE OF INSPECTOR GENERAL RESPONSE .............................................4

          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS
          AND OFFICE OF INSPECTOR GENERAL RESPONSE ....................................4

APPENDIXES

          A: CONSEJO DE SALUD DE PUERTO RICO, INC., COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under section 330 of the Public Health Service Act, codified at 42 U.S.C. §
254b. The Health Center Program provides comprehensive primary health care services to
medically underserved populations through planning and operating grants to health centers.
Within the U.S. Department of Health and Human Services (HHS), the Health Resources and
Services Administration (HRSA) administers the program.

The American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP), New
Access Points (NAP), and Increased Demand for Services (IDS) grants.

Consejo de Salud de Puerto Rico, Inc.

Consejo de Salud de Puerto Rico, Inc. (Consejo) is a nonprofit community health center that
provides medical, dental, mental, and ancillary health services such as diagnostic testing and
pharmacy to residents of four communities in southern Puerto Rico. Consejo is primarily funded
by Federal, State, and local grants.

Consejo received $23,839,900 in revenue from all funding sources during fiscal year (FY) 2009.
Of this amount, $2,148,540 was awarded by HRSA under a CIP grant to make improvements to
existing facilities, and a total of $2,051,212 was awarded under NAP and IDS grants to increase
access and reduce barriers to health care within Consejo’s service area.1

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, Consejo must comply with Federal cost
principles in 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a).

1
  The grant budget periods for the funds awarded were: June 29, 2009, through June 28, 2011, for the CIP grant
funds; March 1, 2009, through May 31, 2011, for the NAP grant funds; and March 27, 2009, through
March 26, 2011, for the IDS grant funds.



                                                         1
These cost principles specify the criteria that costs must meet to be reasonable, allocable, and
otherwise allowable. The HHS awarding agency may include additional requirements that are
considered necessary to attain the award’s objectives.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether costs claimed by Consejo were allowable under the
terms of the grant and applicable Federal requirements.

Scope

We limited our review to costs, totaling $2,548,872, claimed by Consejo during the period
July 22, 2009, through August 4, 2011. We did not perform an overall assessment of Consejo’s
internal control structure. Rather, we reviewed only the internal controls related to our objective.

We performed fieldwork at Consejo’s administrative office in Ponce, Puerto Rico.

Methodology

To accomplish our objective, we:

        reviewed relevant Federal laws, regulations, and guidance;

        obtained and reviewed Consejo’s HRSA grant applications, notices of grant award and
        supporting documentation;

        interviewed Consejo personnel to gain an understanding of Consejo’s accounting system,
        internal controls over Federal expenditures, and CIP, NAP, and IDS grant activities;

        reviewed Consejo’s independent auditor’s reports and related financial statements for
        FYs 2009 and 2010;

        compared approved budgeted amounts to actual grant expenditures;

        obtained and reviewed a list of the grantee’s drawdowns and compared them with the
        amounts expended to ensure that drawdowns did not exceed expenditures;

        reconciled grant expenditures to Federal financial reports;

        analyzed selected expenditures for allowability; and

        discussed our results with Consejo officials.




                                                 2
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

Of the $2,548,872 in costs that we reviewed, Consejo claimed $957,008 in costs that were
allowable under the terms of the grant and applicable Federal requirements. We were unable to
determine if the remaining $1,591,864 in salary and fringe benefit costs were allowable because
Consejo did not prepare personnel activity reports for employees whose time was charged to the
grant. Moreover, Consejo did not have written procedures for determining the allowability of
expenditures in accordance with applicable Federal requirements.

GRANT FUNDS NOT SUPPORTED WITH DOCUMENTATION

Federal Requirements

Pursuant to 2 CFR part 230, Appendix A, § A.2.g, costs must be adequately documented to be
allowable under an award. Pursuant to 2 CFR part 230, Appendix B, §§ 8.b and 8.m, for salaries
and wages to be allowable for Federal reimbursement, grantees must maintain personnel activity
reports that reflect the distribution of activity of each employee whose compensation is charged,
in whole or in part, directly to Federal awards. These reports must reflect an after-the-fact
determination of the actual activity of the employee, be signed by the employee or a supervisory
official having firsthand knowledge of the employee’s activities, be prepared at least monthly,
coincide with one or more pay periods, and account for the total activity of the employee.

In addition, pursuant to 45 CFR § 74.21(b)(6), grantees must have written procedures for
determining the reasonableness, allocability, and allowability of costs in accordance with the
provisions of the applicable Federal cost principles.

Salary and Fringe Benefit Costs

We could not determine the allowability of salary and fringe benefit costs, totaling $1,591,864
($878,274 related to the NAP grant and $713,590 related to the IDS grant), because Consejo did
not maintain the required personnel activity reports for employees who worked on the NAP and
IDS grants. In addition, Consejo did not have written procedures for determining the
allowability of expenditures in accordance with the provisions of the applicable Federal cost
principles. Consejo officials stated that they were unaware of the requirement to maintain
personnel activity reports of actual activity for employees who worked on Federal awards.




                                                3
RECOMMENDATIONS

We recommend that HRSA:

       either require Consejo to refund $1,591,864 to the Federal Government ($878,274 related
       to the NAP grant and $713,590 related to the IDS grant) or work with Consejo to
       determine whether any of the costs that it claimed against these grants were allowable,

       educate Consejo officials on Federal requirements for supporting salaries and wages, and

       ensure that Consejo (1) develops written procedures for determining the allowability of
       expenditures and (2) maintains personnel activity reports for each employee who works
       on Federal awards.

CONSEJO DE SALUD DE PUERTO RICO, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Consejo disagreed with our first recommendation and
generally agreed with our remaining recommendations. Further, Consejo requested time to
provide additional documentation through “alternate methods” to validate that the $1,591,864 in
salary and fringe benefit costs were allowable. Consejo subsequently clarified that the additional
documentation consisted of after-the-fact personnel activity reports prepared after our fieldwork
and sworn statements from its employees. Since the additional documentation was created
subsequent to our review, we did not grant Consejo’s request for time to submit the additional
documentation. Consejo’s comments are included as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                                4
APPENDIXES
                                                                                                                                Page 1 0[2


  APPENDIX A: CONSEJO DE SALUD DE PUERTO RICO, INC., COMMENTS 





               ~tRTR4~
 ANIVERSARIQ CONSEjO DE SAWD DE ['UERTO RICO, INC 	
                                                                                                                 ORA AWILDA GARdA. \ 10
                                                                                                                       DIREcrOR MEDICO


                                                                                              LCDQ ALlAN Cl)\.rrR6 N SAUCHS, MBA. MI ICM
                                                                                                                    DIR£crOR I:JECUTIVO



             June 15, 2012



             James P. Edert 

             Regionallnspec1or General for Audit Services 

             OFFICE OF AUDIT SERVICES, REGION II 

             JACOB K. JAVITS FEDERAL BUILDING 

             26 FEDERAL PLAZA, ROOM 3900 

             NEW YORK, NY 10278 


                                                                                Certified LeHer # 7008 3230 0000 2478 0385
             REF: Report Number A·02·11-02011


             We acknowledge as of June 13, 2013, the receipt of your letter daled June 12, 2012, regarding the
             enclosed U.S. Department of Healill and Human Services, Office of Inspector General (OIG), draft report
             entitled Consejo de Salud de Puerto Rico Did Not Always Claim Recovery Act Costs in Accordance Willl
             Federal Requirements. As slated, 10 properly consider our views on lIle validity of the facts, it is requesl
             Ihat we provide you willl written comments willlin 5 business days from lIle date of aforementioned letter.

            Facts according 10 the draft report indicale lIlat HRSA awarded Consejo de Salud de Puerto Rico
            $2,148,540 under a CIP granllo make improvements to existing facilities, and a total of $2,051 ,212 was
            awarded under NAP and IDS granls to increase access and reduce barriers to healill care within Consejo's
            service area. Also, as per the draft report, out of Ihe $2,548,872 in costs that were reviewed, Consejo
            claimed $957,008 in costs lIlal were allowable under the lerms of lIle granl and applicable Federal
            requ irements. However, il is also slated that lIle remaining $1 ,591,864 in salary and fringe benefit costs
            were unable to be determined if were allowable because Consejo did not prepare personnel activity reports
            for employees whose time was charged to the grant. Consequently the referred draft report recommends
            thatHRSA:

                 1. 	 either require Consejo to refund $1,591 ,864 to the Federal Government ($878,274 related to the
                      NAP grant and $713,590 related to the IDS grant) or work with Consejo to determine whether any
                      of lIle costs that it claimed against these grants were allowable,
                 2. 	 educate Consejo officials on Federal requirements for supporting salaries and wages, and
                 3. 	 ensure that Consejo (1) develops wriHen procedures for determining the allowability of
                      expenditures and (2) maintains personnel activity reports for each employee who works on Federal
                      awards.

            Regarding point number one we strongly believe to have factual merits through alternate methods to
            validate that all remaining $1,591 ,864 in salary and fringe benefit costs were de facto allowable.
            Furthermore, we have leamed that none of the CIP, NAP, IDS HRSA funded projects in Puerto Rico and


AVE. HOSf()s 1034. PONCE. PR 00716-1115 ' PO BOX 220. MERCIDITA. PR 007IS{)220 ' TEL 787.843.9393 · FAX 787.8;t.oon · WEB WWW.MEDCENTROORG
                                                                                                           Page 2 0[2




many across the nation have not complied with documenting as it is requested in the draft report. By stating
this we do not pretend to neither waive a compliance issue neither lead to infer that funding was not
property used for allowable costs. However, we reasonably believe that a knowledge or intrinsic
documenting difficulty to comply toward the compliance issue is of general existence. Moreover, during a
recent (this year) continuous education session for Certified Public Accountants by Aquino, De Cordoba,
Alfaro &Co, LLP it was stated under Section B - Reform To Cost Principles; Line Item 'C' - Exploring
Alternatives to Time-and-effort Reporting Requirements for Salaries and Wages:

        (Quofe) 

        This reform idea would involve working wffh fhe Federal granf and Inspector General (IG) 

        communffies to identify risks associated wffh justification for salaries and wages and to identify 

        possible affemative mechanisms for addressing those risks beyond current time-and-effort 

        reporting requirement. 


Regarding points number two and three we express our willingness to learn more and be in full compliance
with the Federal government expectations.

Accordingly, should we have to refund the amount of $1,591,864 it will have a serious adverse impact on
the clinical delivery to the population we serve. As we strongly believe that we may provide factual
merits through alternate methods to validate the usage of such funding as allowable use of federal
funds. Thus, we respectfully raquest that we are granted an extension of 60 days to provide the
information that will allow you to properly consider our views on the validity of the facts .

The consideration you may provide to our request will be greatly appreCiated. We are a community based
organizalion that acknowledges the importance of procedures to be followed and is eager to be a prime
example of excellence.

Sincerely,




Cc:     Glenn H. Richter, Audit Manager; DHHS IOIG

        Francisco Bayanillla, MBA - Finance and Accounting Director Officer
                                                                                                              Page 10f2


            APPENDIX B: HEALTH RESOURCES AND SERVICES 

                    ADMINISTRATION COMMENTS 





(/"~       DEPARTMENT OF HEALTH '" HUMAN SERVICES 	                               Health Resources and Services

\,.,,1[-                                                                          Administration
                                                                                  Rockville, MD 20857

                                               AUG 2 3 2012




           TO: 	          Inspector General

           FROM: 	        Admini strator

           SUBJECT: 	     OIG Draft Report "Consejo de Salud de Puerto Rico, Inc., Did Not
                          Always Claim Recovery Act Costs in Accordance with Federal
                          Requirements" (A -02·11-02011)

            Attached is the Health Resources and Services Administration' s (HRSA) response to
            the DIG's draft report, "Consejo de Salud de Puerto Rico, Inc., Did Not Always Claim
            Recovery Act Costs in Accordance with Federal Requirements" (A-02-11-020 11). If you
            have any questions, please contact Sandy Seaton in HRSA 's Office of Federal Assistance
            Management at (301) 443 -2432.


                                                     ~&-KJ{--~
                                                       Mary K. Wakefield, Ph.D., R.N.

            Attachment
                                                                                                   Page 2of2




  Health Resources and Services Administration's Comments on the OIG Draft Report­
  "Consejo de Salud de Puerto Rico, Inc"~ Did Not Alwuys Claim Recovery Act Costs in
               Accordance with Federal Requirements" (A~02 ~ 11 -02011)

The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA 's response to the Office of Inspector General (DIG)
draft recommendations are as follows:                         .

OlG Uecommendation to HRSA:

We recommend that HRSA either requi re Consejo to refund $1 ,591 ,864 to the Federal
Govenunent ($878,274 related to the NAP grant and $713,590 related to the IDS grant) or work
with Consejo to determine whether any of the costs that it claimed against these grants were
allowable.

URSA Response:

HRSA concurs with the OIG recommendation and will work with the grantee to determine if any
American Recovery W1d Reinvestment Act (ARRA) grant funds need to be refunded.

OIG Recommendation to HRSA:

We recommend that HRSA educate Consejo officials on Federal requirements for supporting
salaries and wages.

HRSA Response:

HRSA concurs with the DIG recommendation and will work with the grantee to educate Consejo
officials on federal requirements for supporting salaries and wages.

DIG Recommendation to HRSA:

We recommend that HRSA ensure that Consejo (1) develops written procedures for determining
the allowability of expenditures; W1d (2) maintains personnel activity reports for each employee
who works on Federal awards.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with the grantee to establ ish a
financi al system to improve its tracking ofHRSA grants.
